No. 19-680
IN THE

bupreme Court of tije Elutteb *tateo
KENNETH SEALEY, et al.,
Petitioners,
v.
J. DUANE GILLIAM, et al.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Fourth Circuit

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,983 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 2, 2020.

Colin Casey Ildgan
Wilson-Epes Printing Co., Inc.

